<html>
<title> - TELECOMMUTING: A 21ST CENTURY SOLUTION TO TRAFFIC JAMS AND TERRORISM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  TELECOMMUTING: A 21ST CENTURY SOLUTION TO TRAFFIC JAMS AND TERRORISM
=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2006

                               __________

                           Serial No. 109-230

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE

34-546 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Shannon Meade, Professional Staff Member
                           Alex Cooper, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2006....................................     1
Statement of:
    Green, Daniel, Deputy Associate Director, Employee and Family 
      Support Policy, U.S. Office of Personnel Management; 
      Danette Campbell, Senior Telework Advisor, U.S. Patent and 
      Trade Office; and Carl Froehlich, Chief of Agency-wide 
      Shared Services, Internal Revenue Service..................    14
        Campbell, Danette........................................    22
        Froehlich, Carl..........................................    32
        Green, Daniel............................................    14
    Mularie, William, chief executive officer, the Telework 
      Consortium; Joslyn Read, assistant vice president, 
      regulatory affairs, Hughes Network Systems, LLC, on behalf 
      of the Telecommunications Industry Association; and Jerry 
      Edgerton, president of business and Federal marketing, 
      Verizon Communications.....................................    45
        Edgerton, Jerry..........................................    62
        Mularie, William.........................................    45
        Read, Joslyn.............................................    54
Letters, statements, etc., submitted for the record by:
    Campbell, Danette, Senior Telework Advisor, U.S. Patent and 
      Trade Office, prepared statement of........................    24
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    77
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    10
    Edgerton, Jerry, president of business and Federal marketing, 
      Verizon Communications, prepared statement of..............    65
    Froehlich, Carl, Chief of Agency-wide Shared Services, 
      Internal Revenue Service, prepared statement of............    34
    Green, Daniel, Deputy Associate Director, Employee and Family 
      Support Policy, U.S. Office of Personnel Management, 
      prepared statement of......................................    17
    Mularie, William, chief executive officer, the Telework 
      Consortium, prepared statement of..........................    48
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     4
    Read, Joslyn, assistant vice president, regulatory affairs, 
      Hughes Network Systems, LLC, on behalf of the 
      Telecommunications Industry Association, prepared statement 
      of.........................................................    57


  TELECOMMUTING: A 21ST CENTURY SOLUTION TO TRAFFIC JAMS AND TERRORISM

                              ----------                              


                         TUESDAY, JULY 18, 2006

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 2247, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Davis of Virginia, Issa, 
Schmidt, and Norton.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director/chief counsel; Shannon Meade, 
professional staff member; Jessica Johnson, OPM detailee; Chad 
Christofferson and Alex Cooper, legislative assistants; Tania 
Shand, minority professional staff member; and Teresa Coufal, 
minority assistant clerk.
    Mr. Porter. I would like to thank everyone for being here 
today.
    With an increase in traffic congestion, fuel prices, time 
away from one's family, and terrorist and pandemic threats, the 
time is right for the subcommittee to examine the Federal 
Government's use of telecommuting for our Federal employees. 
Years ago, many of us used to watch with awe when a member of 
the Enterprise crew from Star Trek would ``beam them up,'' 
thus, allowing them to travel instantly from one location to 
another. Imagine how life would change if you could literally 
be anywhere at one time.
    Today, with affordable broadband access, Web casting, e-
mail, Instant Messaging, and digital-quality video streaming, 
the only thing which separates the fantasy world of Star Trek 
and our modern world is that no one has to actually travel 
anywhere. As technology races ahead, it has become necessary 
for the Government to adapt and take advantage of these 
changes. Taking advantage of available and reasonable 
technology has the potential to save millions of dollars in 
routine operations, as well as saving the Federal Government 
from spending potentially millions more in the event of a 
national disaster.
    The effective use of telecommuting will provide for 
continued Government operations during an emergency or disaster 
situation, increased efficiency and productivity in the Federal 
Government, and an increase in the quality of life of Federal 
employees. All of this becomes more relevant when we consider 
the world in which we currently live. To insulate the daily 
operations of the Federal Government from the disruption caused 
by an emergency situation, it is imperative that the Federal 
Government have an effective telecommuting policy that will 
allow employees to work offsite in a critical time.
    Considering the constant threat of terrorist attacks, 
natural disasters, and wide-spread sickness, for example, the 
Avian flu, the Federal Government should be able to maintain 
operations even in times of a crisis. The importance of 
continuity of operation planning was again underscored recently 
when the massive flooding forced the Internal Revenue Service 
headquarters building to be closed until next year, which I 
think everyone is happy about. No, just kidding.
    We will hear today from the IRS as to how they have 
responded to the disaster. I know that my good friend and 
Ranking Member Danny Davis has done a lot of work on improving 
the continuity of operation planning for the Federal 
Government, and I look forward to learning from him in the 
future, if not today, with some of his written testimony.
    Telecommuting can also have a huge impact on the traffic 
problems plaguing the major metropolitan areas nationwide. In 
my home State of Nevada, a Federal employee commuting from his 
or her house in Green Valley to an office in Boulder City could 
take over an hour. With the national price per gallon average 
of approximately $3 and energy costs rising everywhere in our 
Nation, consumers and various levels of Government are 
increasingly looking at new ways to be more frugal.
    While various solutions are currently being explored, such 
as hybrid cars, alternative fuels, and expansion of public 
transportation, the simple reduction of the number of travelers 
on the road is an idea that usually does not come up. Public 
transportation and hybrid cars are great, but nothing uses less 
fuel than not traveling at all.
    Of course, if people are not traveling into work, then they 
are not in the offices. Office space, especially in major 
metropolitan areas, is incredibly expensive. Not only must you 
pay for the actual space itself, you must also pay utilities, 
purchase furniture, hire cleaners, and, in many cases, maintain 
security. All of this adds up rapidly. The U.S. Patent and 
Trademark Office [PTO], reduced annual real estate expenditures 
by $1.5 million, as its aggressive telecommuting program for 
its trademark attorneys has reduced the need for three floors 
of office space in its former Arlington, VA headquarters.
    In addition, PTO has seen an increase in production and 
output by 10 percent since implementing its telecommuting 
program. If all functions of a particular employee's job can be 
performed remotely, and there is a clear means by which the 
employer can determine that work is getting done to a 
measurable standard and even more efficiently, isn't it unfair 
to American taxpayers to not pursue telecommuting aggressively 
for the Federal Government?
    The benefits of telecommuting are not strictly related to 
energy, economics, and emergency preparedness. Numerous studies 
have shown that teleworking employees tend to be happier in 
their jobs, and more productive as a result. Telecommuting can 
be instrumental in serving the needs of the family. By allowing 
parents to build their lives around their families and not 
their long commutes, the Federal Government puts productive 
parents at home to attend Little League games and school 
recitals.
    I fully understand that every employee is not eligible for 
telecommuting. But the truth is that there are many employees 
in a given office setting who are perfectly suited to be 
telecommuters, yet agencies are not currently taking advantage 
of it. This may be due to management fears, cultural change, or 
perhaps lack of awareness of the available technology or even a 
lack of central leadership pushing agencies and managers to the 
many advantages of telecommuting.
    Notwithstanding the excuses, this has to improve. In his 
testimony before the subcommittee last November, Congressman 
Frank Wolf testified that ``roughly 60 percent of the jobs in 
[the] region are jobs whereby people could telework.'' While 60 
percent of all jobs found with the National Capitol Region 
qualify for telecommuting, only 12 percent actually do as of 
today.
    Therefore, nearly 180,000 out of 300,000 employees could 
work at a location other than their official work site. Offices 
and cubicle spaces can be eliminated, downsized, or shared as 
employees come to the official work site less and less. It is 
absolutely essential that all Federal employees and agencies 
implement an effective telecommuting policy to be prepared in 
the event of an emergency, to increase production and 
efficiency, and to improve the quality of life of its 
employees. The American taxpayers deserve nothing less.
    I look forward to the testimony of all the witnesses that 
we have today and I would especially like to thank the IRS for 
its willingness to testify on short notice, while under very 
hectic and, I know, very difficult circumstances.
    [The prepared statement of Hon. Jon C. Porter follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.001
    
    [GRAPHIC] [TIFF OMITTED] 34546.002
    
    [GRAPHIC] [TIFF OMITTED] 34546.003
    
    Mr. Porter. I would now like to recognize the Congresswoman 
from the District of Columbia for opening comments.
    Ms. Norton. Thank you.
    I appreciate this hearing, Mr. Chairman, and believe that 
Mr. Davis, who would otherwise be here unless unavoidably 
detained, would say so as well, because it is vitally 
important, and increasingly so, to the future of the Federal 
work force in terms of emergency preparedness, keeping Federal 
employment competitive, and making sure it evolves with new 
technologies and new times.
    Representative Danny Davis could not be here, but this 
hearing concerns a hearing of true importance to him in 
particular. Mr. Davis' pending H.R. 3566, the Continuity of 
Operations Demonstration Project Act, takes an important step 
in addressing the issues we are here to talk about today.
    The core issue is this: the great benefits--proven 
benefits--that telework has to offer are simply not being 
realized by the Federal Government.
    Telework is a prudent response to probability. With 
hurricanes and other natural disasters, the threat of terrorism 
and a flue pandemic all on our radar, we must be prepared to 
continue operations in the face of damage and disruption. Just 
this month we saw the Internal Revenue Service headquarters 
close for 6 months as the result of flooding from severe summer 
storms. I know we are happy that apparently the IRS is open. I 
am not sure if the taxpayers of the United States are as 
gleeful as we are.
    To ensure continuity of operations in these situations, we 
need a sound telework of telecommuting infrastructure. For an 
agency to pick up where nature or an emergency made it leave 
off, Federal workers must be able to work from other locations 
and must have the technology practice and support necessary to 
do so.
    This means investments in training, equipment, and 
facilities. It means that workers should have telework 
experience, and, most of all, it means that careful planning 
has to be done to ensure any transition is a smooth and 
effective one.
    Yet, despite how important telework is to the continuity of 
operations planning, agency plans continue to be 
underdeveloped, and the necessary time and resources have not 
yet been committed. Only 43 percent of agencies have telework 
integrated into their COOP plans, and only 20 percent provide 
related training.
    The problem is not only at this step in the chain. 
Government studies have concluded that the specific guidance 
needed to incorporate telework into COOP plans is lacking and 
that this lack of direction continues to hinder progress.
    Such a status quo is unacceptable. While better guidance 
needs to be provided, agencies should not have to be chided. 
Research shows that program investments in telework will more 
than pay for themselves.
    COOP aside, telework brings a second set of benefits. 
Telework benefits employers. It has been proven to boost 
productivity and reduce absenteeism. In its annual surveys from 
2003 and 2004, AT&T found that teleworking saves them 
approximately $150 million a year, and that it is a first-order 
recruiting tool. It also benefits employees. It saves commuting 
time and costs for workers and enhances family life and morale. 
And it serves the environment, too, by reducing auto emissions 
and pollution.
    But telework lags its potential here. For far too many 
employees, their desire is met with resistance, and their 
desire turns to frustration. This is all in the face of the 
most significant congressional mandate on telework, Section 355 
of Public Law 106-346, which requires agencies to increase 
participation to the maximum extent possible.
    Despite requirements on each of these points, agency 
policies have not fully evolved. Barriers have not been 
sufficiently identified, and steps to overcome them have not 
been sustained. Investment is under-provided and allotted in a 
manner that lacks a strategic focus. Agencies in charge of 
Government-wide implementation have not gone far enough in 
pressuring agencies to comply with the law, in collecting the 
data necessary to understand where we stand and what needs to 
be done, or in helping agencies to get there.
    In short, telework is essential for both emergency 
preparedness and being prepared to build the workplace of the 
future. But these are not two separate goals. Instead, COOP is 
yet another reason to build a basic telework capacity, and 
telework must be structured with COOP needs in mind.
    I look forward to today being at the start of a real march 
toward this type of integrated policy and toward realizing 
telework's true potential.
    I also note, in closing, that Representative Davis is 
submitting a statement for the record on these points further.
    Mr. Porter. Thank you very much.
    Chairman Davis.
    Mr. Tom Davis of Virginia. Thank you, Mr. Chairman.
    Telework leverages the latest technology to give 
significant flexibility to managers and workers alike. It can 
serve to reduce traffic congestion, which, as we all know, is a 
major problem in this region. But telework isn't just common-
sense efficiency. It is also an important national security 
consideration as well.
    The decentralization of Federal agency functions inherent 
in a healthy telework strategy can greatly increase the 
survivability of those agencies in the event of a terrorist 
attack or other disruptive crisis. Therefore, I have 
consistently advocated that telework needs to be an integral 
part of every Federal Government agency continuity of operation 
plan [COOP].
    To promote my strong commitment to telework and its 
inclusion in COOP planning, the full Government Reform 
Committee has held numerous hearings under my chairmanship. We 
have also engaged the GAO to evaluate the Government's COOP 
planning process, the inclusion of telework in that process and 
the adequacy of Government-wide exercises of COOP plans and 
telework.
    Our efforts have focused on a number of aspects of 
telework. A primary concern has been the status of telework in 
the Federal Government. We have encouraged the responsible 
agencies for implementing telework policies for Federal 
employees, the Office of Personnel Management, to increase its 
efforts to increase the availability of telework programs for 
Federal workers.
    With regard to telework and the COOP planning process, we 
have monitored agencies' identification of their essential 
functions and their adherence to Federal Emergency Management 
Agency COOP guidelines. We directed GAO to issue annual score 
cards to assess how agencies were performing their COOP 
planning responsibilities. We also obtained GAO's annual 
evaluations of agencies' inclusions of telework in their COOP 
plans.
    The findings consistently recognize that progress has been 
made, but that most agencies needed additional guidance and 
should take steps to assure that telework was a more prominent 
component of their COOP program. Testing of COOP plans is an 
essential component of assuring that a plan is realistic and 
effective.
    In June, 63 agencies engaged in a combined exercise to test 
the Government's readiness to respond to disaster, called 
Forward Challenge 2006. I have a pending information request 
with the Department of Homeland Security to obtain extensive 
documents about preparation of the exercise and Hotwash After-
Action reports for each agency's exercise. I am also engaging 
GAO in expanded post-exercise evaluation.
    Post-Forward Challenge 2006 reports and evaluations will 
provide us with the tools to assess how effective that exercise 
was and how effectively telework was utilized. Once I have 
received those evaluations, we will be in a better position to 
determine the appropriate role that the committee and Congress 
can play in assuring that telework is more effectively utilized 
by every Federal Government agency and is widely available to 
Federal employees.
    Similarly, we will assess how the committee and Congress 
can assure that telework becomes an integral part of every 
agency's COOP plan and that future exercises properly test 
their telework capability.
    I want to thank you, Mr. Porter, for convening this 
hearing. I look forward to continuing to work with your 
subcommittee on expanding telework opportunities for all 
Federal employees.
    [The prepared statement of Hon. Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.004
    
    [GRAPHIC] [TIFF OMITTED] 34546.005
    
    [GRAPHIC] [TIFF OMITTED] 34546.006
    
    Mr. Porter. Thank you, Mr. Chairman. We appreciate it.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Thank you for holding 
this important hearing. You know, when you get to be the last 
one to make an opening statement, you certainly don't want to 
repeat everything that has been said so well, particularly by 
our chairman. But I do think that there are some other 
important issues that have not yet been brought up.
    Obviously, we have talked about homeland security and the 
ability to have continuity of Government even if a physical 
facility has been damaged. But I believe that when we speak 
about the congestion and the fact that you are going to get a 
one-time savings by telecommuting out of Washington, DC, but if 
we continue to concentrate in and around the District of 
Columbia government agencies, we will revisit the exact same 
problem in the foreseeable future.
    So as we look at telecommuting and the need for telework, 
we need to also recognize, and this committee particularly 
needs to recognize, that we have over-concentrated in the 
greater District of Columbia area--northern Virginia, Maryland, 
and the District of Columbia--we have over-concentrated the 
seat of Government. There are agencies galore, including the 
Internal Revenue Service, that did not need to be close to 
Congress or close to the President. The work, in fact, of the 
Patent and Trademark Office, the work of the Internal Revenue, 
both of them could be located, and I am certain that Senator 
Byrd has planned to have them located in West Virginia for some 
time. [Laughter.]
    But in fact, as we look at that, we need to recognize that 
locations of the few workers--fewer, the better--that actually 
have to be in a facility give us the flexibility to begin 
looking at decentralizing our facilities and having less and 
less people who call the District of Columbia and northern 
Virginia and Maryland their home. This, in the case of an 
attack on America, would dramatically improve our ability to 
have sustainability of our critical people.
    I certainly want to commend the work you are doing, though, 
on the prime issue here today.
    Two more anecdotal comments. One of them, of course, being 
that except for that nasty Constitution, I would be advocating 
that Congress start telecommuting a little bit. But 
unfortunately, we did ratify in the Constitution the 
requirement that we meet together and, in fact, meet here.
    Last, but not least, as we are going into how, where, what, 
and why we telecommute, I hope that we will all recognize that 
proper telework technology employed broadly throughout the 
Government would prevent the unfortunate, but fortunately no 
permanent damage, loss of that laptop by the Veterans 
Administration. Unnecessary for that kind of data to be 
compromised by being removed from the secure location, and 
proper telework would not require that tens of thousands of 
sensitive documents or sensitive Social Security numbers be 
taken out of a facility. So hopefully that also will fit into 
today's hearing, and I look forward to listening to our 
witnesses.
    Mr. Porter. Thank you, Mr. Issa.
    I guess, as a side note, decentralizing Government because 
of----
    Mr. Issa. Nevada ring a bell as I was speaking?
    Mr. Porter. I was going to talk about Yucca Mountain, but 
maybe we can talk about that some other time. [Laughter.]
    Mr. Issa. You want it located here?
    Mr. Porter. I think it would be a great place for storage 
of nuclear waste. Anyway. [Laughter.]
    Instead of Nevada. [Laughter.]
    Again, thank you for your comments. I think this is of 
great interest to this committee, and we have brought some 
experts today. But first I would like to do some procedural 
matters.
    Ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    Ask unanimous consent that all exhibits, documents, and 
other materials referred to by Members and the witnesses may be 
included in the hearing record, all Members be permitted to 
revise and extend their remarks. Without objection, it is so 
ordered.
    It is also the practice of this committee to administer the 
oath to all witnesses, so if you would all please stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Porter. I also would like to have the second panel now 
stand. And we are going to do this one more time. If you would 
raise your right hands.
    [Witnesses sworn.]
    Mr. Porter. Let the record reflect that all the witnesses 
have answered in the affirmative. You can, of course, please be 
seated.
    The witnesses will each have 5 minutes, and we would like 
you to please summarize your comments. As I note, you have 
submitted full statements for the record.
    Today we will be hearing from Daniel Green, Deputy 
Associate Director for Employee and Family Support Policy with 
the U.S. Office of Personnel Management; Danette Campbell, the 
Senior Telework Advisor for the U.S. Patent and Trade Office; 
Carl Froehlich, the Chief Agency-Wide Shared Services with the 
Internal Revenue Service.
    So I would like to thank, again, all of you for being here, 
and we will begin with Mr. Green for 5 minutes. Thank you.

STATEMENTS OF DANIEL GREEN, DEPUTY ASSOCIATE DIRECTOR, EMPLOYEE 
AND FAMILY SUPPORT POLICY, U.S. OFFICE OF PERSONNEL MANAGEMENT; 
  DANETTE CAMPBELL, SENIOR TELEWORK ADVISOR, U.S. PATENT AND 
 TRADE OFFICE; AND CARL FROEHLICH, CHIEF OF AGENCY-WIDE SHARED 
               SERVICES, INTERNAL REVENUE SERVICE

                   STATEMENT OF DANIEL GREEN

    Mr. Green. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I am pleased to be here today on 
behalf of the Office of Personnel Management to talk about 
telework. I would like to start by expressing OPM's continued 
support for telework in the Federal Government.
    OPM continues to work with Federal agencies to support 
their efforts to implement telework to the broadest extent 
possible. OPM staff members have provided agencies with 
individualized guidance and technical support through onsite 
visits, as well as providing one-on-one consultation to agency 
telework coordinators on an ongoing, as-needed basis.
    We have revised the annual agency survey to streamline the 
questions and enhance data collection, and are currently in the 
process of gathering the data for our next report.
    Continuity of operations and pandemic health crisis 
planning have continued to increase interest in telework. As 
required by the President's National Strategy for Pandemic 
Influenza Implementation, OPM is updating its telework guidance 
to include information about emergency planning. We are adding 
modules to the existing online training courses for managers 
and teleworkers, and we are substantially revising the telework 
guide that resides on the Interagency Telework Web site.
    To assist Federal agencies with their emergency planning, 
OPM is preparing a legislative proposal that would allow the 
head of an agency to require employees to work from home or 
another alternate work site during a pandemic health crisis, if 
necessary, to achieve the agency's mission or a performance 
goal.
    Some widely reported security challenges have also 
increased the focus on telework. In our updated telework guide, 
we tell Federal employees and their managers that they are 
responsible for the security of Federal Government property and 
information regardless of their work location. When employees 
telework, agency security policies do not change, and should be 
enforced at the same rigorous level as when they are in the 
office.
    Our plans for future activity include a redesign of the 
Interagency Telework Web site, continued agency visit, and 
continued agency telework coordinator meetings addressing the 
developing issues and questions. As part of the redesign of the 
Telework Web site, we will be developing online telework 
materials designed to assist telework coordinators in promoting 
telework in their agencies. We will also be adding to our 
training with the development of classroom style sessions for 
managers and supervisors that will be offered to all agencies 
and interactive Web-based courses facilitated by a telework 
expert.
    All of this activity is in support of Federal agencies and 
agency coordinators to provide them the information, materials, 
and training they need to grow effective telework programs. All 
of it is fairly basic because telework is not really a 
complicated program. Telework is simply an extension of what 
most employees already do, which is to use technology for 
remote communications. The barriers are more perceived than 
real.
    Management resistance is often cited as the reason that 
telework is not working in an agency or workgroup. For some 
managers, managing teleworkers may seem difficult or outside of 
their experience. In our guidance about telework, we tell 
managers that they need to manage by results, not by presence. 
The same set of skills that managers must develop in order to 
meet the goals of performance management is what they need to 
manage teleworkers. Managers who have mastered performance 
management techniques have the skills in place to easily manage 
a mixed or all-teleworking workgroup without difficulty.
    In summation, I would like to make two main points. First, 
telework is not new or mysterious or difficult. It is simply a 
way of getting work done that uses the same kinds of 
technologies that enable work to be achieved in an agency 
office. Second, telework is not a panacea for all our ills. It 
is certainly one way to reduce traffic congestion, but it can 
only be one piece of a much broader approach to the problem.
    Similarly, for terrorism or other emergency situations, 
telework represents one method of mitigating the impact of such 
events on the ability of agencies to accomplish work, but can 
by no means be considered by itself a solution. What telework 
can be, has proven to be, is an effective tool to support 
Federal employees in balancing their work life and to help 
Federal agencies meet their performance objectives.
    That concludes my remarks. I would be pleased to respond to 
any questions the subcommittee may have.
    [The prepared statement of Mr. Green follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.007
    
    [GRAPHIC] [TIFF OMITTED] 34546.008
    
    [GRAPHIC] [TIFF OMITTED] 34546.009
    
    [GRAPHIC] [TIFF OMITTED] 34546.010
    
    [GRAPHIC] [TIFF OMITTED] 34546.011
    
    Mr. Porter. Thank you, Mr. Green. We appreciate your 
testimony.
    Next we will hear from Danette Campbell.
    Appreciate your being here, Danette. Thank you very much.

                 STATEMENT OF DANETTE CAMPBELL

    Ms. Campbell. Thank you. Chairman Porter, Ranking Member 
Davis, and members of the subcommittee, my name is Danette 
Campbell, and I would like to thank you for inviting the U.S. 
Patent and Trademark Office to testify today. I commend you for 
holding today's hearing and for working hard to ensure that our 
Federal Government is in the vanguard of telecommuting efforts.
    As PTO's Telework Coordinator, I am responsible for 
overseeing the implementation and operation of telecommuting 
programs, and I serve as a point of contact on such programs 
for the Committee on Appropriations.
    As you are aware, the workplace today goes beyond the walls 
that surround an office building. Changing the boundaries of 
old workplace patterns allows for decreased commute time, 
greater control over workloads, and even a more balanced 
lifestyle. This all translates into increased employee 
productivity and satisfaction, as well as higher employee 
retention.
    At the U.S. PTO, we are expanding our telework programs to 
create a work force that can work anywhere, any time. We 
believe that U.S. PTO's decision to implement telework as a 
corporate business strategy will help reduce traffic congestion 
in the national capital region and, in a very competitive job 
market, allow the U.S. PTO to hire over 3,000 new examiners in 
the next 6 years.
    During my brief tenure at the Patent and Trademark Office, 
I have had an opportunity to witness a commitment by PTO 
leadership to support the telework initiative, encourage 
employee participation, and supply remote workers with the 
tools they need to be successful.
    Prior to participating in a telework program, each employee 
receives instruction on how to access PTO systems remotely. We 
have an extensive IT security infrastructure and strong 
security policy that work together to ensure that both 
personally identifiable information and business sensitive 
information are adequately protected from loss or theft. These 
protections have been implemented throughout the PTO telework 
initiative and help to prevent the possible occurrence of a 
sensitive information security breach.
    Recently, the Trademark Work at Home program received the 
Telework Program with the Maximum Impact on Government award 
from the Telework Exchange. This award recognized that 
Trademarks has created an extremely successful telework program 
that can serve as a model for other Government agencies. This 
telework program was praised as an innovative telework 
prototype by showing other agencies how to incorporate 
measurable performance goals in evaluating the performance of 
its teleworkers.
    As part of this telework program, 80 percent of eligible 
examining attorneys make electronic reservations for their time 
in the office and perform the majority of their trademark 
examination duties at home. Each employee is provided with the 
necessary equipment to establish a secure connection to the 
agency's network and automated systems enable users to perform 
all of their examination duties electronically.
    Trademark Work at Home combines management by objective 
with hoteling, which translates into documented space and 
related cost savings for the PTO. By incorporating measurable 
performance goals in the evaluation of worker performance, 
Trademarks has created a model of extremely successful 
telecommuting programs for Government agencies.
    The Patents Hoteling Program provides participants with the 
option to perform officially assigned duties at home. Major 
elements of this program include remote online access to all 
relevant PTO business systems, job performance tools, patent 
information, patent application documentation, and incorporates 
the use of collaborative communication technologies. Program 
participants can remotely reserve workspace for required time 
spent in hoteling suites located throughout PTO's Alexandria 
campus. To date, approximately 320 patent examiners have 
relinquished their office space to work from home 4 days a 
week.
    The Patents Hoteling Program positions the agency to hire 
new patent examiners without incurring additional real estate 
costs, eliminates 4 days of commuting time, and has made patent 
examining in the Washington metropolitan region more attractive 
to potential candidates who currently reside outside of the 
region. This telework program will enable PTO to recruit from a 
highly qualified hiring pool and retain existing valuable 
employees.
    I believe that the U.S. PTO telework programs are 
progressive efforts that will continue to serve as models for 
Federal agencies and that they are some of the best telework 
programs that the Federal Government has to offer.
    In conclusion, a successful telework program can mean 
better employee morale, higher levels of sustained performance, 
and reduce traffic congestion and air pollution. The U.S. PTO 
has demonstrated that telework works and is a winning 
proposition for our employees, our agency, and for the American 
public.
    We appreciate this opportunity to testify before this 
committee on this important issue. Thank you.
    [The prepared statement of Ms. Campbell follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.012
    
    [GRAPHIC] [TIFF OMITTED] 34546.013
    
    [GRAPHIC] [TIFF OMITTED] 34546.014
    
    [GRAPHIC] [TIFF OMITTED] 34546.015
    
    [GRAPHIC] [TIFF OMITTED] 34546.016
    
    [GRAPHIC] [TIFF OMITTED] 34546.017
    
    [GRAPHIC] [TIFF OMITTED] 34546.018
    
    [GRAPHIC] [TIFF OMITTED] 34546.019
    
    Mr. Porter. Thank you, Ms. Campbell. We appreciate your 
testimony.
    Next we will hear from Mr. Froehlich, who is the Chief of 
Agency-Wide Shared Services at the IRS. And, again, I 
understand you have had some major challenges down the street, 
and I appreciate all the efforts to get everything up and 
running again.

                  STATEMENT OF CARL FROEHLICH

    Mr. Froehlich. Yes, sir. We have been quite busy, so thank 
you, Mr. Chairman and members of the subcommittee for having me 
here today to talk about the recent flooding in the IRS 
headquarters building at 1111 Constitution.
    Just as background, as Chief of Agency-Wide Shared 
Services, I manage a portfolio of shared services across IRS: 
real estate, procurement, employee support services such as 
timekeeping and payroll and travel, and also equal opportunity 
management and case processing. That is how we provide our 
service to our clients, the clients being the taxpayer-facing 
side of IRS.
    What happened on June 25th and 26th, as you well know, we 
had significant rains, turning Constitution Avenue essentially 
into a river. That water came down Constitution Avenue and 
flooded into the basement of the IRS. The IRS basement was 
flooded to a depth of 5 feet. The sub-basement, which holds all 
of our infrastructure, was flooded to a depth of 20 feet. This 
is what has caused the major damage. We pumped the first 2 days 
about 3 million gallons of water out of the basement of IRS.
    The fact that IRS, as it was constructed in the 1930's, 
placed all the infrastructure in the basement, the electrical 
switchboards, the air handlers, the chillers for the air 
conditioning, and what have you, is the reason why we had the 
significant delay to move back into the building. That is 
really the long lead element, to get the employees back to work 
in the building.
    We have completed the initial phase of clean-out and 
decontaminated. That was completed on July 15th. All the 
things, lessons learned you have heard from Katrina, about 
moving drywall to prevent mold and what have you, all that 
effort was done. It was an absolutely superb effort done by GSA 
to get their teams on there on the third day of ripping out the 
drywall, the furniture, the carpets, the flooring to keep the 
mold problem down. As a matter of fact, we have eliminated that 
now. We are in the dry-out mode of what is going on.
    GSA is in the process of completing their damage 
assessments for the building. GSA is responsible for the 
capital investment side of the building; the IRS is responsible 
for the maintenance and the upkeep and the cleaning. That is 
our agreement. We will have those estimates by the end of this 
month. We anticipate, however, for the building to be 100 
percent back, it will take, as you mentioned, until the end of 
the year, so January timeframe. We are hopeful, however, that 
we will be able to do a phased return back to the building for 
some of our employees as we bring some of the systems back up 
again.
    I would be remiss, however, to say that we are also very 
concerned that we preclude recurrence of the same incident. We 
know basically the means of how the water got in is how the 
building was constructed was a contributing factor, and we are 
working with GSA now on what are the options to guard against, 
either harden the building or perhaps do some sort of 
mitigating thing to move some of the infrastructure out of the 
sub-basement to prevent such damage again.
    Of note, we have never had, in the 70-some odd years of 
this building's existence, this type of flooding. But that 
doesn't mean we will just assume it doesn't happen again. We 
will take that further action.
    That is where we are in the building.
    As far as business resumption, Agency-Wide Shared Services, 
as I mentioned, is a portfolio of those services. As such, we 
also provide the cross-business work on a routine basis, 
geographically based. In other words, if a business unit in 
Philadelphia has an issue, we provide the what is it we need to 
do with the union negotiations, what do we need to do with real 
estate, what do we need to do with procurement. We provide that 
service inside AWSS.
    As such, when this incident happened, we established an 
incident command center in our new Federal building in New 
Carrollton. We have 14 buildings in the D.C. area, and that is 
one of them. The command center was charged and provided the 
authority to make very quick decisions on what is needed for 
business resumption, to implement the COOP plan for the short-
term continuity of operation, and then bring in the business 
needs as far as prioritizing our resources as we apply to the 
casualty to bring the business of IRS back up again.
    We have been fairly successful with maintaining continuity. 
As a matter of fact, the taxpayer-facing aspects of IRS are not 
headquartered in the IRS building at 1111 Constitution; those 
are out in the field. Those were unaffected, obviously, by the 
flood.
    Even so, by January 5th, which is the next week--or, excuse 
me, July, we had 1142 employees back up to work, about 50 
percent. And that included all of our critical employees that 
were on the COOP operation plan.
    On Monday, yesterday, as a matter of fact, we had 96 
percent of all our employees back to work. Of those, 873, or 
about 29 percent, were via telework, which provided a wonderful 
flexibility for us as far as bringing those people back that 
were already equipped with the laptops and the infrastructure. 
The telework brought them back immediately, so it was not an 
issue with them.
    I am sure we will have some questions, but I just want to 
give you a couple of quick lessons learned.
    As we learned from Katrina, COOP is but one element, and 
that is the near-term continuity of operation. The business 
resumption side is really the hard slug of work, and that goes 
on what is best planned and then do you have the right people 
in the right place to make the business decision. We will learn 
that again on this one and we will get better, and hopefully, 
if this ever happens again, we will be better again.
    That concludes my opening remarks. I am available for 
questions.
    [The prepared statement of Mr. Froehlich follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.020
    
    [GRAPHIC] [TIFF OMITTED] 34546.021
    
    [GRAPHIC] [TIFF OMITTED] 34546.022
    
    [GRAPHIC] [TIFF OMITTED] 34546.023
    
    Mr. Porter. Thank you. We appreciate all your testimony. 
Where are your auditors located, are they out in the field?
    Mr. Froehlich. They are out in the field, exactly correct.
    Mr. Porter. We appreciate, again, being able to pick on 
you, since you're the IRS. We want 10 percent improvement in 
efficiency at the IRS.
    Mr. Froehlich. Yes, sir. Revenue that runs our country. 
That is what we do.
    Mr. Porter. Thank you. And, again, not to make light of a 
very serious situation. We appreciate all of your efforts. 
Again, thank you very, very much.
    I have a question or two. I will begin with Mr. Green.
    You said there is 12 percent of the potential 60 percent of 
Federal employees in the national capital region telecommuting. 
How do you suggest the agencies increase their telework 
numbers? Do you have a plan in place? What are you doing now?
    Mr. Green. We are there to help them. We have a plan for 
the year. We are starting off. In 3 weeks we will be issuing a 
new guide to Federal agencies that is coming out concurrent 
with the guidance from OPM on pandemic influenza and personnel 
issues stemming from that, from the potential from that.
    Our new telework guide gives guidance on that and to all 
Federal agencies on how best to, in our estimation, implement 
telework programs that involve management and employees, and 
the planning and development of those programs, and it can be 
sustainable programs that not only help in the situation of a 
COOP planning for a pandemic or for a terrorist attack, but 
also to help with work-life balance, to help productivity, and 
to help further the mission of the agency, because, after all, 
that is what each agency is primarily interested in, is meeting 
its mission objectives.
    The second thing that we will continue to do is to offer 
onsite visits in consultation to Federal agencies. We conducted 
20 such visits in the past year, and my staff is available to 
help any Federal agency that requests it. In fact, we go out of 
our way to offer our services to agencies to help them 
implement their programs effectively.
    We are also going to be revamping our training. We are, 
right now, working on adding a pandemic module to our online 
telework training program, which will soon be available on Go 
Learn to all Federal agencies on a free basis while they 
develop their programs.
    Then we are going to look into, as you know, OPM puts on a 
wealth of management training. We are going to work with those 
program managers to add robust telework guidance and management 
training, because we think that is where the biggest bang for 
the buck, reaching out to local managers and helping them 
understand how telework works, how it works in coordination 
with performance management, and help ease them through what 
they may see as a mysterious process. It shouldn't be anymore, 
it has been around a while, but I think that is where--another 
cliche--the rubber hits the road, is between the manager and 
the employee.
    All agencies have telework policies. We think that by 
reaching out to managers and helping telework coordinators at 
agencies reach out to managers and employees is the way that we 
can most effectively increase the numbers of teleworkers.
    Mr. Porter. Do you think that agencies have enough legal 
authority, assuming there was an emergency, to require 
employees to telecommute in a state of chaos, possibly?
    Mr. Green. There are programs available currently which 
would help agencies manage to continue operations and continue 
employees working. There is evacuation pay programs and all. 
Nonetheless, we believe that after consultation with the CDC 
and understanding about, should a pandemic occur, the need for 
social distancing, the experts call it, not having people 
congregate together in an office or other setting, that it 
would be appropriate to give individual agency heads the 
authority to require employees to work at home or in some other 
distributed location. So we are preparing legislation right now 
that we are going to offer to you that would help accomplish 
that goal.
    Mr. Porter. Congresswoman, questions?
    Ms. Norton. Thank you, Mr. Chairman.
    It is hard to know how to approach what would seem to be a 
natural desire of employees, to avoid the traffic, the hustle 
of getting on that highway. You know, for those of them who 
don't live in the District of Columbia, I don't know how they 
can resist it. But according to the GAO report, there have been 
problems on all ends.
    Just let me say to my good friend from California, while I 
was out of the room, I understand there was some Capital lust 
expressed. [Laughter.]
    Don't start me on what would happen if you moved 
substantial parts of the Government to California, with its 
earthquakes. Even my good friend, the chairman, who would have 
the IRS employees off gambling in Reno. [Laughter.]
    Mr. Issa. You know, there is a reason that the pioneers 
kept moving West.
    Ms. Norton. Yes. But, indeed, I just want to say that 
George Washington and Thomas Jefferson would turn over in their 
graves if they thought anybody would want to take the Capital 
and piece it out to the provinces. [Laughter.]
    Mr. Issa. I note that you noted two prominent Virginians. 
The Bostonians may have disagreed even at the founding. 
[Laughter.]
    Ms. Norton. You notice they didn't get the Capital of the 
United States, though.
    Mr. Porter. Of course, she missed the part about Yucca 
Mountain. [Laughter.]
    Ms. Norton. You wanted to move the Capital there, Mr. 
Chairman?
    Mr. Porter. No, we were going to move Yucca Mountain here.
    Ms. Norton. Oh, I see. [Laughter.]
    I do want to say for the record, because I think it would 
bring some comfort to my two friends to know, that while there 
are about 2 million Federal employees, most of them are out 
there. There are, you know, perhaps 200,000 or so in this 
region. That leaves the rest of the country with all the rest 
of them. This is a profoundly decentralized Government, but no 
great country fails to have its own great capital where, yes, 
it keeps and husbands its great agencies. So you all are going 
to have to live with it. Get over it.
    We all agree that, in the abstract, this is a wonderful 
thing and we would like to see it happen more often, and two 
parent families, one parent families, everybody hustling. 
Golly, you would think people would hurry to do it. And there 
are many reasons, frankly. Because the incentives to do it are 
so great on the employee end, there is no question where the 
problem lies. It has to lie on the Government end.
    You say to a mother who has to leave her child off at day 
care and then get on these roads, 295, 395, 95, to get to 
Washington. She would rather die than do that. If she does it, 
there has to be some sense that she doesn't know what would 
happen, she doesn't have enough incentives. So I just want to 
say there is no way for this not to be working if the 
Government were pressing it--Federal Government, OPM and 
company, including OMB--were doing all they were supposed to 
do.
    Now I fear the opposite. It does seem to me that there is 
going to be a huge chilling effect. If you were thinking about 
teleworking and you heard about what has just happened to these 
laptops, you would think again. First of all, I am sure, I am 
almost positive that these were employees who, like many 
professionals in the private sector, were just trying to do 
their work and to just take work home, or perhaps even to do 
teleworking.
    Lo and behold, something happens to the computer and it is 
front page news. And in the age of identity theft, everybody 
can understand why. And when our soldiers in Iraq are among 
those who have had their identity gone, you can understand how 
this employee must feel.
    Well, my question is really a single question to all of 
you. I think that most employees have every reason now to say 
just one moment, I am not going to be involved in this; can't 
be sure this stuff is secure, can't be sure that my laptop 
won't be stolen. And yet, really, in your testimony I didn't 
hear--that is why I ask the question--much to assure their 
confidence that it is all right, it is all right to do.
    For example, in the testimony of Mr. Green, we learn that 
when employees telework, agency security policies do not 
change. Hear that? They do not change, and should be enforced 
with the same rigor as when in office. Well, that is bull. 
That, if anything, says, OK, tell me how to do that. And who is 
going to be blamed if there is either a theft or a security 
risk?
    Then it says we refer to guidance from the Office of 
Management and Budget and NIST for further explication of 
security requirements and their application to the telework 
environment, like look it up, employees, and then you will 
understand what to do.
    For PTO, even more serious. You are dealing with people's 
intellectual property, you are dealing with patents. And I was 
very impressed with how much computer work goes on. And, 
indeed, you say on page 2 we are expanding to create a work 
force that can be anywhere at any time. Well, before I submit 
my patent to the PTO, I want to know all about that.
    Ms. Campbell. OK.
    Ms. Norton. And before I take home any work, I want to make 
sure that if my patent gets stolen inadvertently because of 
security problems, either there in the Government, you are 
going to take care of me.
    Ms. Campbell. Let me----
    Ms. Norton. No, ma'am, I am just going to make the point, 
then you all can answer.
    Ms. Campbell. OK.
    Ms. Norton. Mr. Froehlich, am I pronouncing that correctly?
    Mr. Froehlich. Froehlich.
    Ms. Norton. Froehlich. Now, nobody, of course, wants 
anything to happen to their income tax returns. That is guarded 
with very heavy penalties. So my question to you, of course, 
largely has to do with can anybody even take home anything that 
could lead back to one's tax returns? And how does teleworking 
work in an agency where that kind of security is almost like 
the security we attach to secure agencies that guard us against 
terrorism?
    So, Mr. Green, I will just ask, beginning with you, why 
should anybody take any work home, given what looks to be 
rather vague notions that if they would read the regulations, 
they would understand how to keep their work out of the office 
secure? And I want to know how do they. I take my work home; I 
am a supervisor; I want to get it all done. How am I assured 
that it will be secure?
    Mr. Green. Thank you. Every agency has its own security 
policies in place and every Federal employee is required by law 
to have security training every year.
    Ms. Norton. But the GAO just told us that--first of all, we 
know that teleworking and taking home work, simply as a 
professional matter, is probably going on where neither you or 
others don't know about it. I understand what the requirements 
are, Mr. Green. I am asking you another question.
    Suppose a hard-working Federal employee looks to the 
manual, does what the manual says, takes her work home. I am 
going to give you the hard question about it being stolen. 
There are ways, of course, to protect work that is stolen by 
the way it is--what do you call it?
    Mr. Green. Encrypted?
    Ms. Norton. Encrypted. But leave that aside for a moment. I 
simply want to know if I take it home to some part, to my own 
home, how do I know it is secure? Is it secure is what I really 
want to know.
    Mr. Green. It should be secure if the agency's security 
policies are in place and if the employee----
    Ms. Norton. What are those policies? There are no 
Government-wide agency security policies, is that your answer?
    Mr. Green. No, ma'am. There are----
    Ms. Norton. Should there be? Should there be, Mr. Green?
    Mr. Green. And there are. There are standards. The NIST has 
issued several sets of standards and guidance on how to encrypt 
data, how to have the inflow of electronic information and 
exercise----
    Ms. Norton. Well, if the data is not encrypted, you are 
saying that the employee should not take the work home?
    Mr. Green. I am saying that employees should follow the 
security policies, the securities in place depending upon the 
type of data that they have, and if they do that, then the data 
should be safe. Nothing is 100 percent safe in this world.
    Ms. Norton. So there is no agency-wide policy and each 
agency can decide for itself what that policy could be?
    Mr. Green. Each agency has its own policies, yes, ma'am.
    Ms. Norton. I want to just go on record right here saying 
you take home your work at your own risk. And I also want to 
know if an employee can be punished if in fact something 
happens.
    Mr. Green. I am sorry, I don't think I said that, ma'am.
    Ms. Norton. I am saying it.
    Mr. Green. OK.
    Ms. Norton. This is the Congresswoman saying, warning, all 
Federal employees, if your agency does not assure you, one, 
that everything you have has been encrypted and, two, that you 
will not be personally punished if there is a security breach, 
then you are forewarned that you should not take your work 
home. And I think you should issue them that warning. Since you 
say each agency has the right to do it, you ought to tell 
employees up front, the ones who are in fact reaching out to do 
work, what their responsibility is and what they should do if 
the agency has not in fact met its responsibility.
    Mr. Green. OPM has done that to its own employees. We were 
all issued such a policy statement just a couple of weeks ago 
and given guidance on how to handle data when they are 
teleworking.
    Ms. Norton. Ms. Campbell, perhaps you can talk about 
intellectual property.
    Ms. Campbell. I can speak to our telework programs and how 
the information is secure. Our telework systems have many 
features that ensure the security and the protection of 
sensitive data. However, to address your concern with employees 
simply taking hard copy information home, that is a very 
difficult thing, I would think, to control unless in fact----
    Ms. Norton. I wasn't talking about hard copy. I am talking 
about taking a computer home.
    Ms. Campbell. Again, I can speak to the telework initiative 
at the Patent and Trademark Office and tell you that our 
servers are connected to a series of network switches and 
routers that are connected to a virtual private network which 
protects the servers from outside attack.
    Ms. Norton. So if an employee were to take work home, would 
it be on a disk or something, that would be encrypted? Or how 
would an employee take work home from PTO?
    Ms. Campbell. Well, when our workers telework, they are 
actually remoting into their system at the Patent and Trademark 
Office, so they are not transporting a disk, they are not 
transporting a file, per se. They are remoting in.
    Ms. Norton. OK, this is important to note. So nobody at PTO 
can just take their own laptop home and do work there out of 
their own laptop, but they have to have a secure computer at 
home that in fact links in to PTO?
    Ms. Campbell. Well, actually, we provide the employee with 
the laptop. When they are working at home and they remote in to 
this system at the office, their hard drive is in, sometimes it 
is called a rack and stack, so that when that information is 
coming through, it is not residing on that laptop, it is just 
passing through. So if that laptop were stolen----
    Ms. Norton. So your own rules--not the rules, excuse me. 
What is important about what you are saying----
    Ms. Campbell. Our systems?
    Ms. Norton. Your systems, as opposed to your rules--because 
we heard from Mr. Green about the rules--you are saying your 
systems do protect against security breaches.
    Ms. Campbell. Yes, ma'am, as much as can possibly be in 
place.
    Ms. Norton. If in fact people are using only your systems, 
I would agree. And it does seem to me that is the kind of 
thing, particularly after the recent thefts and problems, we 
don't want to have.
    Now, Mr. Froehlich, you work in an atmosphere that has 
always been extremely high security. Would you tell me how, 
particularly people's income tax returns, are protected? Can 
anybody telework, telecommute, whatever, on anybody's income 
tax material from any date forward or back?
    Mr. Froehlich. As you point out, this is not a trivial 
task. At IRS, it is taken very seriously. Taxpayer information 
is all classified as sensitive information. We do have a fairly 
lengthy period of time, however, of experience on this because 
we have field agents that work in small businesses and work in, 
you know, General Motors and what have you, that are used to 
remote.
    Those applications, as pointed out by Ms. Campbell, are run 
encrypted. They are exchange information encrypted.
    Now, the slug of work that is important and, really, 
lessons learned from Veterans Administration are where are the 
gaps. Payroll, for example. Are payrolls encrypted with 
National Finance Center. Are those transactions encrypted? Are 
Equal Opportunity case files, are those encrypted? And as we go 
through a very systematic approach of all the information that 
one of our employees could touch, are we taking precautions?
    The utopia where every hard disk is fully encrypted is 
where we need to go. At some point we are going to get there. I 
think we are going to get there pretty soon.
    Ms. Norton. Very important what you are trying to do, Mr. 
Froehlich, but you are saying to me that all the financial 
information is encrypted, except perhaps for payroll 
information?
    Mr. Froehlich. Payroll information right now is all 
encrypted, yes, ma'am. That is one of my personal operations 
and I have verified that.
    Ms. Norton. Personal information,
    Mr. Froehlich. These are for employees.
    Ms. Norton [continuing]. Once that information goes to you 
from me, is encrypted?
    Mr. Froehlich. For taxpayer information the answer is yes. 
The question is where are the gaps. And, you know, for employee 
records, do we have those fully encrypted? Are those removed 
from hard drives, where they shouldn't be? Those types of 
guidance, it is a mixed approach. We have technology as far as 
one solution, but there is also operator requirements, what are 
you allowed to have on your laptop; what are you not allowed to 
have on your laptop?
    There is a shared responsibility between agency and 
employee, and how that is defined is really the training piece 
of work that is so critical so people know their roles and 
responsibilities. That effort has gone underway with IRS and 
continues today. To say that we are done on that would be 
premature, but we have gone a long way down this road, learning 
lessons from the Veterans Administration.
    Ms. Norton. So you are saying that your goal at IRS, you 
have a plan to encrypt all of your records and material?
    Mr. Froehlich. That is the ultimate goal. What I can't tell 
you today is when we will get there and----
    Ms. Norton. You have a plan to do--I can understand that 
will take a very long time. But I am saying is there a plan 
that says the IRS has a plan--I don't know, 10 years from now, 
whatever it is--to have encrypted all of our records?
    Mr. Froehlich. Right. You have gone about three layers out 
of my area of jurisdiction in IRS, but I would be happy to come 
back with a formal question on that.
    Ms. Norton. Would you submit to the chairman within the 
next 30 days whether there is a plan? I think they will be 
particularly interested to the IRS to encrypt all your work. I 
appreciate what you are saying, because sometimes you can get 
tax information on other than somebody's tax form. So it does 
matter that your records be encrypted to the greatest extent 
possible.
    Mr. Froehlich. And we have had several years of managing 
the paper, how is that coded, how is that managed, how is that 
destroyed. So there is some, you know, process behind this, and 
the question is how do we now apply that to the electronic 
side, especially in the world of telecommuting, where we now 
have far more people carrying information with them on a 
routine basis. It is not a trivial problem.
    Ms. Norton. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Porter. Mr. Green, Ms. Campbell, Mr. Froehlich, we 
appreciate your testimony today. Thank you very, very much.
    Mr. Green. Thank you.
    Ms. Campbell. Thank you.
    Mr. Porter. Mr. Froehlich, don't worry about losing 
alphabet P, it is OK.
    Mr. Froehlich. I don't do taxes, I do everything else.
    Mr. Porter. Thank you.
    If the next panel, please, could come forward.
    The witnesses will now be recognized for approximately 5 
minutes of testimony. On our second panel today we will hear 
from Dr. William Mularie, who is chief executive officer of the 
Telework Consortium; Joslyn Read, assistant vice president of 
regulatory affairs, Hughes Network Systems, a Limited Liability 
Co., who will be speaking on behalf of the Telecommunications 
Industry Association; and finally hear from Mr. Jerry Edgerton, 
president of business and Federal marketing, Verizon 
Communications.
    Doctor, welcome.

  STATEMENTS OF WILLIAM MULARIE, CHIEF EXECUTIVE OFFICER, THE 
  TELEWORK CONSORTIUM; JOSLYN READ, ASSISTANT VICE PRESIDENT, 
 REGULATORY AFFAIRS, HUGHES NETWORK SYSTEMS, LLC, ON BEHALF OF 
    THE TELECOMMUNICATIONS INDUSTRY ASSOCIATION; AND JERRY 
EDGERTON, PRESIDENT OF BUSINESS AND FEDERAL MARKETING, VERIZON 
                         COMMUNICATIONS

                  STATEMENT OF WILLIAM MULARIE

    Mr. Mularie. Thank you. Chairman Porter and members of this 
subcommittee and your excellent committee staff, too. They were 
very helpful. I thank you for this opportunity to share my 
perspectives. I have submitted my written testimony, so I will 
expand on some of the main points.
    I was really interested in the title of this hearing, and I 
suspect a year or two previous to this, when you talked about 
telework and terrorism in the last sentence, nobody would 
really understand. But I think through the work of the 
Committees on Government Reform and Chairman Tom Davis and 
yourself, and my Congressman, Frank Wolf, that the public 
better understands now the connection.
    So I represent the Telework Consortium. I am funded by the 
Department of Commerce to accelerate the adoption of telework 
in Government and in business sectors. And although we have 
been involved in the advocacy issues in telework, most of our 
focus has been to advance the practice of telework through 
pilot demonstrations, using advanced technologies, with Federal 
agencies, some local and State governments and businesses.
    So today I would like to speak briefly on three issues. One 
is briefly on the financial burden upon automotive commuters 
and taxpayers. And, Mr. Chairman, I think you fundamentally 
stole my punch line on this, but I will go through with it 
anyway. The second, telework is the core of continuity of 
operations planning; and, last, based upon our experiences in 
the Telework Consortium pilot demonstrations, the imperative of 
broadband access to homes, certainly for all the Government 
workers, to every manager and every worker who is tasked with 
maintaining the delivery of goods and services in an agency.
    So, the financial burden of commuting. I had the privilege 
of testifying, Mr. Chairman, before your subcommittee on 
November 16th on the issue of mitigating the impact of high 
gasoline prices on the American work force. And I did orally a 
calculation there, and it is in the written record, but for 
someone with a salary of, say, $65,000 commuting 40 miles round 
trip, that at $1.25 a gallon, the worker has to spend 2 months 
of his take-home pay--take-home pay--to pay for the cost of 
commuting. At $3 a gallon, it takes a few weeks more.
    Now, the purpose of that testimony was to show that it is 
not the cost of gas, per se, but it is the act of commuting. 
And as you have said, Mr. Chairman, in your opening statement, 
not traveling is really the right solution to this. And also 
the taxpayer obviously gets stuck with supporting these 
commuters. Road capacity now is really built to try to 
accommodate this morning and evening commute, and I think we, 
for example, the Wilson Bridge here locally.
    We funded a study by Professor Tony Yezer, of George 
Washington University, that concluded the taxpayers subsidized 
each commuter in the northern Virginia area about $3,000 a year 
through the additional infrastructure building and maintaining 
necessary for these people to commute. So the taxpayer gets 
stuck with this issue of commuting, not only individual.
    But as the subject of this hearing is there is a more 
critical reason than cost to rethink our commuter society, 
namely, continuity of operations. Washington, DC, area is a 
target-rich environment, and the targets not symbolic like the 
Washington Monument, but they are the human lives here in the 
District, and disrupting the functioning of this Government. I 
was just noticing in the paper this morning that they said, for 
example, half of the riders, the commuters on the Metro are 
Federal employees, and there are 50 agency buildings within--on 
the Metro stops.
    So it is a tremendous presence in this beautiful 
Washington, DC, city. So the core of the continuing of 
operations problem is that the daily population of Washington, 
DC, increases by over 70 percent each day, and the 
preponderance of the Federal agencies, the judicial branch, 
legislative and executive branches here in the District.
    The World Trade Center in New York was not hit in 1993 and 
2001 because it was symbolic, but that because, on the average, 
it housed over 40,000 people daily in key services like our key 
financial institutions. And, likewise, the Pentagon was not hit 
here because it was symbolic, but because it held tens of 
thousands of people whose critical mission in the Department of 
Defense was important to this country.
    So my views are that in the aftermath of a terrorist attack 
in the District, we have really two problems. One is an 
evacuation plan, getting these large number of Federal 
employees, legislative and executive branch personnel, out of 
the District safely. The second problem, though, is really the 
continuity of operations problem, having dispersed now, what 
means do we have for intra and interagency communication so 
that the critical work of this Government can continue.
    And how long will this have to continue? As we heard in the 
opening statements, a terrorist attack, the time scale is 
probably unknown with respect to recovery. A pandemic, perhaps 
up to 6 months. Or in the case of a very simple radiological 
dirty bomb, a pea-sized grain of cesium 137 and 10 pounds of 
dynamite in the wind, and you can make parts of the District 
here uninhabitable for decades.
    And so I am concerned that the evacuation of the District 
is problematic and that the current continuity of operation 
plans, the Federal agencies are not adequate for the 
disruption.
    Now let's talk about solution. And, again, rather than 
calling it telework, let me call it a distributed government. 
And it sounds very much like decentralization, so I apologize. 
But I think I can best explain a distributed government by an 
example.
    In 2004, actually, in preparation for Congressman Tom 
Davis' hearings, I talked to the chief technical officer of a 
New York financial institution which, before September 11th, 
occupied 23 floors of the World Trade Center. And I said, well, 
what is your reaction now? He said, post-September 11th, they 
understood that to ensure continuity of operations, they had to 
disperse their people geographically, out of Manhattan, into 
several adjoining States, and also have data, their records in 
redundant locations on separate power grids, tied by robust 
communications.
    And his claim now is that any one of their nodes can be hit 
and put out of business for whatever reason, and it is business 
as usual. He said, our old model used to be that after an 
event, the plan was quick recovery. He said that is no longer 
possible in this world.
    So business as usual. And I wish this would be the motto of 
our Government agencies.
    So how do we proceed? Well, call it telework or distributed 
government, but we need a pre-event-wide geographical 
dispersion of a critical asset of agency workers, home-based 
assets, broadband. And I think that eligibility has to be 
looked at in a different way. Eligibility by the agency heads, 
they have to ask themselves a question: do I have remote to 
this site I am sitting in now, sufficient people with 
sufficient knowledge, with sufficient assets and data to 
sustain the operations of this agency if this building 
disappears now or if this building is no longer accessible? I 
think that is a criterion for eligibility for telework.
    And the technology here exists to do all of this in a very 
secure manner. The way we started with the Telework Consortium 
was with pilot demonstrations. From our experience, you cannot 
institute a successful telework program without a small-scale 
project. We have been at this 5 years now, and I am a 
technologist, but what I did not understand is that telework is 
disruptive to organizations.
    And thinking about it, since the industrial revolution, 
management science has been well studied. You go into a 
bookstore and you see thousands of books on management science. 
And I remember when I was active in corporations, they even had 
a book called Dress for Success. What does dress for success 
mean in a telework environment? Or management by walking 
around.
    So my claim is that it disrupts organization in the sense 
that it changes our notion of what work is, particularly people 
my age. So we have to have pilot demonstrations to develop 
metrics to look at processes and change organizational 
processes to accept this new way of doing business.
    The last thing is the imperative, which is broadband 
access. In our pilot demonstration projects, mostly in northern 
Virginia, the surprise that we had was the lack of broadband 
access to homes. So we would get an agency and we would try to 
outfit people with the telework equipment, and we found out 
that they only had dial-up access. So I would suggest and I 
would hope that the Federal Government would step in and really 
push ubiquitous broadband as an important element of continuity 
of operations.
    Thank you.
    [The prepared statement of Dr. Mularie follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.024
    
    [GRAPHIC] [TIFF OMITTED] 34546.025
    
    [GRAPHIC] [TIFF OMITTED] 34546.026
    
    [GRAPHIC] [TIFF OMITTED] 34546.027
    
    [GRAPHIC] [TIFF OMITTED] 34546.028
    
    [GRAPHIC] [TIFF OMITTED] 34546.029
    
    Mr. Porter. Thank you very much for your testimony.
    Next we will have Ms. Read, again, assistant vice president 
of regulatory affairs at Hughes Network Systems, Limited 
Liability Co., who is speaking on behalf of the 
Telecommunications Industry. Thank you.

                    STATEMENT OF JOSLYN READ

    Ms. Read. Thank you, Mr. Chairman, members of the 
subcommittee. I would like to thank you for holding this 
hearing today on telecommuting and for inviting us to share our 
perspectives for your consideration.
    My name is Joslyn Read. I am here to speak on behalf of the 
Telecommunications Industry Association, as well as Hughes 
Network Systems.
    TIA provides a forum for over 600 member companies, the 
manufacturers and suppliers of global communications products 
and services, including telecommuting. Broadband access can be 
provided over a number of different technologies, including 
satellite, cable, fiber, DSL, and terrestrial wireless 
technologies, all of which hold great promise and in various 
stages of development and deployment. Although TIA members are 
involved in all of these technologies, I am most familiar and 
active in the satellite area and will focus my remarks 
regarding telecommuting to the benefits that satellite 
broadband offers.
    As background, Hughes Network Systems is the global leader 
today in providing broadband satellite networks and services 
for large enterprises, governments, small businesses, and 
consumers. Throughout the United States today, there are 
approximately 300,000 consumer and small business subscribers, 
and over 200,000 large enterprise and Government locations 
using Hughes satellite broadband technology for day-to-day 
networking.
    So, Mr. Chairman, my testimony, simply put, today is as 
follows: First, teleworking is critical to American 
productivity and, as part of continuity of operations plans, is 
critical to American readiness during emergencies.
    Second, satellite communications is an essential element to 
successful implementation of teleworking, as it is the only 
communications vehicle that can reach anyone, anywhere, any 
time.
    Third, Government should support teleworking and do so in 
an inclusive manner that recognizes the unique contribution 
that satellite has and will continue to make in this effort.
    Recent reports have estimated that 28 million Americans 
telecommute in some form today. The author of a recent study 
has defined teleworking as an advanced form of telecommuting, 
which goes beyond simply allowing employees to work from home 
or an alternative location a couple days a week and, instead, 
enables them to work at any time or place that allows them to 
successfully complete their work. The benefits of teleworking 
to organizational efficiency and long-term effectiveness for 
both Federal and non-Federal enterprises has been well 
documented by this panel, and I won't go into those today.
    Attaining the benefits of teleworking is only possible, 
much as Dr. Mularie has just stated, if teleworkers have access 
to high speed broadband communications where they need to do 
the work. Satellite broadband is uniquely positioned to solve 
many of the teleworking needs of today. Satellite broadband 
network infrastructure serves rural, suburban, and urban 
customers ubiquitously and equally throughout the United 
States. Our speeds today are very comparable to terrestrial 
offerings. High speed broadband services by satellite are 
reliable, scalable, and cost-effective.
    Teleworking plays a critical role, as we have heard today, 
in the continuity of operations planning [COOP], for the 
Federal Government and non-Federal enterprises. During 
emergencies, managers and workers need to maintain critical 
functionality from highly distributed home offices and 
alternate locations. Teleworking by satellite provides an 
additional layer of vital diversity in communications modes to 
ensure continuity of operations in business.
    Let me explain a little about satellite communications. 
Satellite networks are comprised of spacecraft orbiting 22,300 
miles above the Earth, with ground-based switching stations, a 
few of them, dispersed throughout the United States or relevant 
service areas. This distributed national, space-based network 
service architecture makes satellite networks extremely durable 
and reliable during manmade and natural emergencies.
    Satellite communications played a critical role during the 
response and recovery efforts resulting from the manmade 
disasters of September 11th and the natural disasters we 
witnessed last year in this country and abroad. When the 
terrestrial Internet, telephone, and broadcast networks went 
down, satellite communications maintained business and 
residential connectivity for weeks until other damaged 
communication systems were restored.
    The Federal Government clearly and urgently needs to 
accelerate the realization and investment in continuity of 
operations plans for working from diverse and alternate 
locations. For many employees within the Washington 
metropolitan area and beyond to achieve the benefits of 
teleworking, a highly effective option is to utilize high speed 
broadband services by satellite.
    Many, many customers in this area still do not have access 
to high speed services, as Dr. Mularie mentioned. Satellite 
broadband services constitutes a critical and often sole option 
for many workers in the Washington area to participate in 
emergency-based COOP preparedness, as well as teleworking 
during non-emergency times.
    So, in conclusion, we fully endorse the steps already taken 
by the Federal Government to introduce teleworking programs for 
ongoing operations and emergency preparedness. We emphasize the 
high speed broadband connections are critical to effective 
teleworking and that broadband by satellite is one of the key 
high speed technologies available to teleworkers everywhere 
throughout the National Capital Region right now.
    In closing, we would like to make the following 
recommendations: that the Federal Government agencies 
accelerate the implementation of teleworking programs and that 
the Congress and the Federal Government define and expand 
teleworking programs to include satellite communications as a 
required element in all formal teleworking and COOP plans; 
compensation to teleworkers for their monthly high speed 
broadband services, this would upgrade customers from dial-up 
to alternative technologies; compensation to teleworkers for 
the broadband customer premises equipment needed to perform 
their online duties; and, last, tax credits for non-Federal 
employers and employees who engage in teleworking programs.
    Mr. Chairman and members of the subcommittee, I would like 
to thank you again for inviting the Telecommunications Industry 
Association and Hughes Network Systems to present today. Thank 
you.
    [The prepared statement of Ms. Read follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.030
    
    [GRAPHIC] [TIFF OMITTED] 34546.031
    
    [GRAPHIC] [TIFF OMITTED] 34546.032
    
    [GRAPHIC] [TIFF OMITTED] 34546.033
    
    [GRAPHIC] [TIFF OMITTED] 34546.034
    
    Mr. Porter. Thank you, Ms. Read. We appreciate your 
testimony.
    Next, Jerry Edgerton, president of business and Federal 
marketing, Verizon Communications. Welcome.

                  STATEMENT OF JERRY EDGERTON

    Mr. Edgerton. Thank you, Chairman Porter and members of the 
subcommittee. I appreciate the opportunity to speak with you 
today on the teleworking solutions for the Federal Government. 
I am pleased to tell you that fast, reliable, secure 
telecommunications technology is in place today for the 
National Capital Region. At the opportunity to be quite 
controversial with my colleagues at the table, we believe that 
this capability will further deploy of teleworking throughout 
the Federal Government.
    I am president of the Verizon Federal, which is a unit of 
Verizon Business that is dedicated to serving the Federal 
Government. Verizon Business was created through the merger of 
MCI and Verizon, and is focused solely on the enterprise 
customer, including the Federal Government. We are one of the 
three business units of Verizon Communications.
    Verizon Business today supports more than 75 Federal 
agencies, and we have designed and deployed some of the most 
complex government networks in the world. Through the FTS 2001 
contract, we are the premier provider of advanced 
communications solutions to the Federal Government. And through 
the Washington Interagency Telecommunications Systems [WITS], 
Verizon Business delivers voice, video, and data solutions to 
the Federal agencies in the Washington, DC, area.
    We are proud of our track record in helping Government 
agencies meet the business requirements, and look forward to 
working with our Federal customers and the GSA to implementing 
teleworking solutions that are reliable, secure, and cost-
effective to a greater number of Federal employees.
    The need for teleworking in the Federal Government is 
greater than ever before, and it goes far beyond enabling 
employees to work remotely. Teleworking should be the 
cornerstone of every agency's business continuity plans, 
especially here in the National Capital area with its high 
concentration of Federal employees.
    It doesn't take a major national disaster or national 
emergency to close down a Federal office building, as was 
witnessed in the last weeks when several days of rain showed us 
what can happen at the IRS. It is important that the agency's 
have a well defined and executed business continuity plan so 
that operations continue seamlessly and that Federal employees, 
regardless of where they are located, are able to perform 
critical job functions.
    Through the evolution of traditional communication 
services, wireless communications and advanced applications, 
the definition of teleworking is rapidly broadening. Agency 
specialists can handle constituent calls from their own homes. 
Federal employees can attain training sessions via Net 
conferencing. Large agency meetings can take place via 
collaboration capabilities.
    The tools available today make these important functions 
entirely possible, helping to improve productivity and reduce 
cost, and many agencies are already using these capabilities. 
Through our FTS bridge contract and ultimately, and ideally, 
through the networks contract, we will offer additional 
collaboration services that will further enhance the 
teleworking experience of Federal workers.
    Technology is leading to a virtualization of the Government 
work force that will yield tremendous pay-backs and reduce 
direct costs, recovery of lost time, favorable environmental 
impacts, reduced infrastructure costs, and, more importantly, 
improved service to the citizens. Done properly and with the 
right technology solutions, teleworking Federal employees will 
function as well or better than they would in their agency's 
offices.
    Undoubtedly, barriers remain that prevent agencies from 
reaping the full benefits of telecommuting, but technology is 
not one of those barriers. Existing technology fully enables 
workers to work remotely today.
    Verizon recognizes the vital role that communications 
technology continues to play in sustaining our Nation's 
economy, improving productivity, and providing Federal agencies 
with the tools needed for effective constituent services and 
efficient operations. Broadband technologies enable many new 
applications that are revolutionizing the workplace. 
Nationwide, Verizon has made billions of dollars of network 
investments that have resulted in new products, services, and 
integrated services over fiber optic cables, wireless 
networking, and digital subscriber services that enable high 
speed connections.
    Our services include fiber to the premise, or what we call 
FIOS; a personal broadband wireless service, or EVDO; and DSL, 
or digital subscriber lines, all of which are available today 
and making ubiquitous high speed access a reality. Our 
wireless, wireline, and global networks create a web of 
connectivity that supports Federal employees as they move 
throughout their day through the different roles in all of 
their different environments.
    We believe that the keys to success for any Federal 
teleworking program are security, reliability, and agency 
endorsement.
    Security must be a top priority for agencies, for employees 
and for service providers. At Verizon, we deploy end-to-end 
network security, meaning that no matter where the work is 
located, no matter what information they are seeking, no matter 
how they are getting online, we provide the same high levels of 
network security for teleworking employees.
    Establishing and managing high security levels eliminates 
the need for teleworkers to keep confidential data bases on 
their work-at-home computers, making data more secure and 
employees more effective while working remotely.
    A telework employee is only as effective as his or her 
broadband connection, so network reliability is critical to the 
success of any teleworking program. These new communications 
technologies are highly reliable and cost-effective means of 
increasing employee productivity by using high speed broadband 
access.
    A successful teleworking program is one in which remote 
working looks no different than the time spent in the office, 
where a teleworker's day is spent in meetings, doing research, 
using the phone or the computer, the same tasks that they would 
be doing in the office. For those workers with a need for the 
social interaction that an office provides, collaboration 
tools, such as instant messaging and video conferencing, are 
helping fill that gap, as well as serving as an effective 
management tool.
    Teleworking is the right thing to do for the greater good. 
To name a few, it increases employee productivity; it helps 
protect the environment by reducing traffic congestions and 
demands; it helps agencies retain seasoned workers by providing 
an alternate workspace and a quality of life; it provides 
disabled workers with increased ability to work from remote 
locations; and, finally, it provides a basis for continuity of 
operations by dispersing the work force.
    When savings on office space and utilities and so forth are 
factored in, I believe that the cost to agencies is more than 
offset by the benefits. In fact, I would urge the subcommittee 
to continue to conduct regular oversight on agencies' 
teleworking initiatives and conduct periodic reviews on their 
process. A teleworking and continuity of operations scorecard 
will continue to be an effective tool to help ensure that the 
potential benefits of teleworking are fully realized by the 
Federal agencies and their employees.
    At Verizon Business, we are committed to working with our 
Federal customers to make continuous improvements in the 
delivery of governmental service. We look forward to working 
with the Congress and our agency customers to drive innovation 
in the business of Government.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Edgerton follows:]
    [GRAPHIC] [TIFF OMITTED] 34546.035
    
    [GRAPHIC] [TIFF OMITTED] 34546.036
    
    [GRAPHIC] [TIFF OMITTED] 34546.037
    
    [GRAPHIC] [TIFF OMITTED] 34546.038
    
    [GRAPHIC] [TIFF OMITTED] 34546.039
    
    [GRAPHIC] [TIFF OMITTED] 34546.040
    
    [GRAPHIC] [TIFF OMITTED] 34546.041
    
    Mr. Porter. Thank you very much. The three of you are very 
lucky today, since the balance of the panel isn't here, so I 
promise I will be easy on you, OK?
    Is there a profile--maybe that is not the right term, but 
is there a particular type of employee that we should be 
looking for? I know we are talking numbers. There are 300,000 
whatever numbers and 12 percent--and I am not going to quote 
the numbers right--that probably could telecommute, but is 
there a certain employee we should be looking for that should 
be doing this? Because I know some folks today that work via 
technology, and they are not very happy with this type of 
arrangement. I think they are more on the people side and 
prefer to have the atmosphere.
    But is there a profile, is there a type of person we should 
be looking for? Or is there a science yet to help us determine 
who that person is?
    Mr. Mularie. I interviewed yesterday Mr. Joe Hungate, who 
is CIO of the Department of Treasury Tax IG, and they have had 
a tremendous successful telework program. Ninety-five percent 
of their people are eligible for telework, and not only workers 
in the sense of GS-whatever, but also managers and directors 
telework. So the culture of the agency is really being 
transferred from sort of coming to a place to really a virtual 
agency organization. In this case they do audits, so this is a 
reasonable thing to do in a distributed manner.
    Mr. Porter. A reasonable thing to do what?
    Mr. Mularie. To have a dispersion of these people, because 
they are out usually in the field doing audits. But as a result 
of this, they have been able to shrink their space here within 
the District; they don't need the space they originally did. 
And I think that the lesson I learned from the Treasury 
Department is that the managers, the executives should be out 
as part of the telework experience. So in answer to your 
question, I think the total agency should view itself as 
eligible in that sense for telework.
    Mr. Porter. And I have to come back to this, but it seems 
to me the manager is really the hub of this, to make sure that 
they are comfortable also, and understanding how to do 
appraisals and performance standards. I think that would be 
critical. But has there been research done--and, again, not 
that I am opposed to this; I am just asking questions, because 
I think there are a lot of folks that would probably flourish 
in this environment.
    But are there studies that have been done as far as 
performance? Again, I don't necessarily think that 95 percent 
really would be eligible from that type of personality without 
the proper coaching, the proper encouragement, the hands-on 
management. Some individuals need that, and left on their own, 
aren't necessarily going to be as efficient. So have there 
actually been studies done?
    Mr. Mularie. Well, there are two ways to view that. One is 
current telecommunications technology and, as Mr. Edgerton 
said, services. From my laptop, Mr. Chairman, I can talk to 
you, I can see you with full video, I can hear you, obviously, 
good voice, and we can collaborate on a document or show the 
latest in cartoons or whatever. So technology allows for a 
great degree of socialization, as opposed to the old way of 
telework, where you had a fax machine and a telephone and your 
computer. So the advances in technology make this remote 
experience more real and more like it would be in an office 
environment.
    With respect to studies done with this, the study I saw 
talked about this cultural issue with respect to telework and 
really destroying this whole idea we have built up since the 
industrial revolution of what work is, and I think that is the 
core reason for managers being resistant, because that is not 
the way they were trained and raised. Management science is 150 
years old. So I think that is why we talk about pilot 
demonstrations so they can look over their shoulder and really 
experience this new world.
    Mr. Porter. I just think it would be difficult for Coach 
Tom Osborne, when he was with the Cornhuskers, to telecommute 
from a coaching perspective from a football team.
    Mr. Mularie. I think Coach Tom Osborne could have won at 
home from a telephone. [Laughter.]
    Mr. Porter. Well, probably a bad example. [Laughter.]
    Tom could do it well.
    But I think that there is a certain science, and I expect 
that, as it evolves, we will learn. And I would expect that the 
telecommute individual is going to be--in my opening comments--
in many cases coming into a bricks and mortar office 
periodically. But I do know that there is a certain amount of 
that interaction, and motivation I think is critical. I would 
hope we wouldn't swing too far away from the hands-on coaching 
that I think is critical on performance.
    Mr. Mularie. Yes, mentoring is important, sir.
    Mr. Porter. The rest of you, what do you think?
    Mr. Edgerton. Well, I would like to contrast this to 
today's office environment, which basically is a series of 
cubes filled with terminals. And I don't think that is 
necessarily a conducive environment for work. I think the 
advent of applications and computer technology and so forth 
have changed the metrics by which we measure and manage the 
work force. So I think a cube at home would certainly be a more 
desirable environment than a cube in the office. So I think 
there is a lot to be said for----
    Mr. Porter. Especially if you saw the movie Office Space. 
[Laughter.]
    Mr. Edgerton. Well, same concept, except on the words.
    Mr. Porter. I understand. Thank you.
    Ms. Read.
    Ms. Read. Yes, thank you. I actually would probably come in 
between the answers here on both of my flanks, in the sense 
that, speaking from Hughes' perspective, we are a global 
company. I can't speak exactly to the personalities of 
individuals, but the personality of companies, and certainly 
companies are becoming more and more global, so I believe that 
ours is not a bad example.
    We have offices in Beijing, in India, in Brazil, in London, 
in Germany. We are in many, many countries. Our offices, our 
sales force is always on the run. Everybody is moving, 
everybody is communicating. Even our operations center is fully 
redundant. If something were to happen in one place, we can 
operate from another. And we are very well connected.
    I have been with the company for 6 years now. There are 
some people that I have collaborated with substantially on 
projects who I have actually never seen; wonderful people. We 
produce great things together, but we do this all by telephone, 
computers, whatever.
    So I think as companies become more dispersed and more in--
at least I can speak for the enterprise side, not so much, 
perhaps the Government side--that the telecommuting is actually 
just another step of the same thing.
    Mr. Porter. I guess I should probably have a picture taken 
of my office at home and carry it with me wherever I go, make 
sure that the camera is always on the picture I carry with me 
to the beach or whatever. [Laughter.]
    And I make light. I think this is a tremendous tool with 
some obstacles because of a cultural change. But technology is 
in dog years, as you probably know better than I, and it is 
changing rapidly, as are the techniques and tools. But I see 
this as a great opportunity for us to be more efficient. I hope 
we don't lose that hands-on management skill that I think 
really can make or break a superstar.
    But from the technology side, what are some of the things 
that are on the horizon to even help more? I know we talked 
about the two-way cameras and having the interaction, but what 
else is on the horizon, from a technological standpoint, that 
is going to make it even easier to do telecommuting and 
advancements? Is there something that is happening we should 
know about?
    Mr. Edgerton. Well, I think the Verizon commitment to its 
fiber to the home and fiber to the premise project is probably 
the best example of that in the sense that we have made a 
corporate commitment to build to over 6 million homes in the 
next year, and that basically is putting I guess the fastest 
possible service to the home level, which really now enables 
the capability not only from video, but the fastest possible 
applications. It should be no different than sitting in your 
office or sitting next to the mainframe, exactly. So just that 
kind of capability and investment.
    The applications will then follow. Then the work suites 
that have to then accommodate the higher speed. I am not sure 
what the weakest link in the chain here is, but we have 
certainly made that investment and are encouraging it. We see 
that as a significant opportunity, a significant change.
    Mr. Porter. Ms. Read.
    Ms. Read. Yes. I would echo that, again, broadband is 
really the backbone of this whole experience. If you can't 
communicate, whether it is by fiber or DSL or satellite or what 
have you, cable modem, it is all-critical to have that 
connection or mobility. And we haven't mentioned BlackBerries, 
but, of course, that has been pretty significant as well.
    Mr. Porter. Terribly. [Laughter.]
    Ms. Read. But in terms of advancements coming on the 
horizon, we do see a lot of retrenching additional 
infrastructure being built on the terrestrial side. Satellites 
cover the entire country. What is interesting and we are very 
excited about at Hughes is a new satellite system that is about 
to be launched in the first quarter of next year. This is a 
program called Spaceway; it will bring dramatically higher 
speed broadband service to the entire country by satellite. So 
for those homes that find that the options in front of them are 
not suitable, for whatever reason--can you hear me?
    Mr. Porter. Speaking of technology. [Laughter.]
    Ms. Read. Technology, yes.
    Mr. Edgerton. I think that is a satellite connection. 
[Laughter.]
    Ms. Read. You have my mic. [Laughter.]
    Certainly, we have the new technologies coming in for 
satellite broadband as well. So there will be great 
complementary services coming out in the satellite arena within 
the next 6 months, 6 to 12 months.
    Mr. Porter. Doctor?
    Mr. Mularie. Mr. Chairman, I shall not be deferred from my 
excitement over video, audio, and electronic whiteboard on your 
PC over the public Internet the same way you can send an e-
mail. I look at and I speak with and I share the morning 
cartoon out of the Wall Street Journal or New York Times or 
something with my colleagues in Northern Sweden, and they are 
there. I meet their children.
    And as Ms. Read said, I had the experience of having this 
relationship with a physician at Tulane University for many 
months, where we would look at different medical applications, 
and I went down to Tulane, physically walking down the hall and 
I said, hi, Bill. He said, we haven't met formally. What he 
meant is we haven't shaken hands.
    Seventy to 80 percent of what human beings transmit is non-
verbal, so seeing is really an important part of this. And the 
broadband technology as an enabler allows you to do this thing 
just beautifully now.
    Mr. Porter. Well, as we talk about telecommuting, my wish 
is that, as the business community is advancing its technology, 
that our educational community would also latch on. As you 
mentioned, the office space has not changed in 150 years. The 
classroom has not changed in 150 years. And I think to be 
competitive--and this is just editorial comment--for us to be 
competitive in the global market, we are going to need to do 
more of this.
    And I would hope that your companies and your associations 
could get more engaged, if you are not already, in the 
educational community and helping some cultural changes there, 
which comes back to the satellite access and the broadband 
access is limited for education as it is, I think, in the 
business community parts of the country, but you see satellite 
becoming a more and more beneficial part of this.
    Also, from a security perspective, I know the problem we 
faced with September 11th, when the only things that worked 
here was BlackBerries. My fear, again, without a redundant 
system, is what happens if a substantial part of our work force 
is in fact telecommuting and the systems are down. Then what 
happens? Please.
    Mr. Mularie. The public Internet is a wonderful robust 
infrastructure, if our friends at Verizon can get us the 
broadband reach to that infrastructure. The Internet worked 
beautifully on September 11th. We were doing video conferencing 
from California to the Naval Research Lab here in Washington. 
So you are right, the things that are--the public telephone 
systems, which are oversubscribed, are useless in terms of 
emergency, but riding this Internet is really a robust 
communications infrastructure.
    Mr. Porter. Ms. Read.
    Ms. Read. I would like to echo the points of Dr. Mularie. 
During September 11th, the satellite networks were absolutely 
functional. The Internet was functioning perfectly well. Our 
plug-ins to the Internet were no problem and our customers were 
finding seamless communications. So, again, it wasn't an issue 
of the particular link that satellites provide as being 
something that was congested or disrupted as a result of 
emergencies.
    Mr. Edgerton. It probably is not well known, but there has 
been a significant effort throughout the National Capital 
Region to improve the wireline and the fiber optic 
infrastructure servicing most of the buildings. Most Government 
agencies now have multiple access and fiber rings serving their 
facilities so that you are not limited to single points of 
failure.
    Also, a significant development has occurred in the area of 
what we call broadband wireless, or EVDO, where about 161, 180 
metropolitan areas now have PC-accessible broadband, which is 
not like BlackBerry and is not like cellular, but runs on 
similar systems. So we actually have broadband access available 
now in those locations. So there are significant ways, other 
than what we saw in the last few instances for alternative 
services.
    I am reminded of the fact that I may be a technology freak, 
but I do have satellite at home. I have Direct TV, I have 
satellite access for data, but I also have cable. And I do have 
BlackBerry. [Laughter.]
    Ms. Read. Which do you like better?
    Mr. Edgerton. Well, I like them all. And my wife still uses 
dial-up. [Laughter.]
    She is the Luddite in the family.
    Mr. Porter. Well, I appreciate your testimony today, the 
first panel and the second panel. And I mentioned hopefully 
into education we can learn and the cultural change, also into 
the area of health care. Technology can save so many lives, 
especially in rural parts of the country. But also I want to 
make sure that, as we move forward, we do it for the betterment 
of our customer service as Federal employees and the Federal 
Government. And I know that our constituents are demanding 
faster and more efficient, accurate service. I think this can 
be a great tool and this is a part of that process.
    So let me again say thank you very much for your testimony. 
I see great things happening for the Federal Government.
    Thank you all, and the meeting is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] 34546.042

[GRAPHIC] [TIFF OMITTED] 34546.043

[GRAPHIC] [TIFF OMITTED] 34546.044

[GRAPHIC] [TIFF OMITTED] 34546.045

[GRAPHIC] [TIFF OMITTED] 34546.046

[GRAPHIC] [TIFF OMITTED] 34546.047

[GRAPHIC] [TIFF OMITTED] 34546.048

[GRAPHIC] [TIFF OMITTED] 34546.049

[GRAPHIC] [TIFF OMITTED] 34546.050

[GRAPHIC] [TIFF OMITTED] 34546.051

[GRAPHIC] [TIFF OMITTED] 34546.052

[GRAPHIC] [TIFF OMITTED] 34546.053

[GRAPHIC] [TIFF OMITTED] 34546.054

[GRAPHIC] [TIFF OMITTED] 34546.055

[GRAPHIC] [TIFF OMITTED] 34546.056

[GRAPHIC] [TIFF OMITTED] 34546.057

[GRAPHIC] [TIFF OMITTED] 34546.058

[GRAPHIC] [TIFF OMITTED] 34546.059

[GRAPHIC] [TIFF OMITTED] 34546.060

[GRAPHIC] [TIFF OMITTED] 34546.061

[GRAPHIC] [TIFF OMITTED] 34546.062

[GRAPHIC] [TIFF OMITTED] 34546.063

[GRAPHIC] [TIFF OMITTED] 34546.064

[GRAPHIC] [TIFF OMITTED] 34546.065

[GRAPHIC] [TIFF OMITTED] 34546.066

[GRAPHIC] [TIFF OMITTED] 34546.067

[GRAPHIC] [TIFF OMITTED] 34546.068

[GRAPHIC] [TIFF OMITTED] 34546.069

[GRAPHIC] [TIFF OMITTED] 34546.070

[GRAPHIC] [TIFF OMITTED] 34546.071

[GRAPHIC] [TIFF OMITTED] 34546.072

[GRAPHIC] [TIFF OMITTED] 34546.073

[GRAPHIC] [TIFF OMITTED] 34546.074

[GRAPHIC] [TIFF OMITTED] 34546.075

[GRAPHIC] [TIFF OMITTED] 34546.076

[GRAPHIC] [TIFF OMITTED] 34546.077

[GRAPHIC] [TIFF OMITTED] 34546.078

[GRAPHIC] [TIFF OMITTED] 34546.079

[GRAPHIC] [TIFF OMITTED] 34546.080

[GRAPHIC] [TIFF OMITTED] 34546.081

[GRAPHIC] [TIFF OMITTED] 34546.082

[GRAPHIC] [TIFF OMITTED] 34546.083

[GRAPHIC] [TIFF OMITTED] 34546.084

[GRAPHIC] [TIFF OMITTED] 34546.085

[GRAPHIC] [TIFF OMITTED] 34546.086

                                 <all>

</pre></body></html>
